Case: 19-30868

Document: 00515202366

Page: 1

Date Filed: 11/18/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-30868

JOSEPH THOMPSON, JR.,
Plaintiff - Appellant
v.
HOUMA TERREBONNE HOUSING AUTHORITY; GENE BURKE; LARRY
VAUCLIN; BARRY BONVILLIAN, Chairman,
Defendants - Appellees

Appeal from the United States District Court
for the Eastern District of Louisiana

Before ELROD, COSTA, and ENGELHARDT, Circuit Judges.
PER CURIAM:
This court must examine the basis of its jurisdiction, on its own motion
if necessary. Hill v. City of Seven Points, 230 F.3d 167, 169 (5th Cir. 2000).
Pursuant to 28 U.S.C. § 2107(a) and Federal Rule of Appellate Procedure
4(a)(1)(A), the notice of appeal in a civil case must be filed within thirty days
of entry of judgment. In this civil rights action, the district court entered final
judgment dismissing the complaint on June 21, 2019.

Plaintiff filed a

“response to judgment granting defendants’ second motion to dismiss the
plaintiffs amended complaint for failure to state a claim,” which the district
court construed as a motion for reconsideration.

The motion for

Case: 19-30868

Document: 00515202366

Page: 2

Date Filed: 11/18/2019

reconsideration was denied September 9, 2019. Therefore, the final day for
filing a timely notice of appeal was October 9, 2019. The plaintiffs notice of
appeal was filed on October 17, 2019. When set by statute, the time limitation
for filing a notice of appeal in a civil case is jurisdictional.

Hamer v.

Neighborhood Hous. Servs. of Chi., 138 S. Ct. 13, 17 (2017); Bowles v. Russell,
551 U.S. 205, 214 (2007). The lack of a timely notice mandates dismissal of
the appeal. Robbins v. Maggio, 750 F.2d 405, 408 (5th Cir. 1985). Accordingly,
the appeal is DISMISSED for want of jurisdiction.

A True Copy
Certified order issued Nov 18, 2019

W. CtM«Ca
Clerk, U.S. Court of Appeals, Fifth Circuit

Case: 19-30868

Document: 00515202375

Page: 1

Date Filed: 11/18/2019

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

November 18, 2019

Mr. William W. Blevins
U.S. District Court, Eastern District of Louisiana
500 Poydras Street
Room C-151
New Orleans, LA 70130
No. 19-30868

Joseph Thompson, Jr. v. Houma Terrebonne
Hsing Auth, et al
USDC No. 2:18-CV-9394

Dear Mr. Blevins,
Enclosed is a copy of the judgment issued as the mandate.

Sincerely,
LYLE W. CAYCE, Clerk

By:

Majella A. Sutton, Deputy Clerk
504-310-7680
cc:
Mr. Joseph Thompson Jr.
Mr. Edward W. Trapolin

Case 2:18-cv-09394-MLCF-JCW Documents Filed 09/30/19 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

JOSEPH THOMPSON, JR.

CIVIL ACTION

v.

NO. 18-9394

HOUMA TERREBONNE HOUSING AUTHORITY, ET AL.

SECTION "F"

ORDER
Before the Court is the plaintiff's motion for leave to file
a reply memorandum to the defendants' opposition to the plaintiff's
motion for reconsideration.

On September 9, 2019, the Court denied

the plaintiff's motion for reconsideration.

The plaintiff's case

was dismissed and his motion seeking reconsideration of the order
and

judgment

dismissing

his

case

was

denied.

additional proceedings to be had in this Court.

There

are

Accordingly, the

plaintiff's motion for leave is DENIED as moot.

New Orleans, Louisiana, September 30, 2019

A

MARTIN / j. C. ^ELDMAN
UNITED STATUS DISTRICT JUDGE

1

no

Case 2:18-cv-09394-MLCF-JCW Document 37 Filed 09/09/19 Page 1 of 8

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA

JOSEPH THOMPSON, JR.

CIVIL ACTION

v.

NO. 18-9394

HOUMA TERREBONNE HOUSING, ET AL.

SECTION "F"

ORDER AND REASONS
Before the Court is the plaintiff's "response to judgment
granting defendants'

second motion to dismiss

the plaintiff's

amended complaint for failure to state a claim," which the Court
construes as a motion to reconsider its June 19, 2019 Order and
Reasons and accompanying Judgment granting the defendants' motion
to dismiss.

For the following reasons, the plaintiff's motion is

DENIED.
Background
This is an employment discrimination case.
Jr., pro se,

Joseph Thompson,

sued the Houma Terrebonne Housing Authority,

Burke, Larry Vauclin, and Barry Bonvillian, alleging:
I believe I was discriminated against because I have
filed a previous complaint against the company Houma
Terrebonne Housing Authority. I also believe I was
discriminated against because of my race, black; in
regards to the previous complaint I filed with HUD, Houma
1

Gene

Case 2:18-cv-09394-MLCF-JCW Document 37 Filed 09/09/19 Page 2 of 8

I have been denied the right to
Courier, FBI, and etc.
a [sic] education on my job, EPA underpayment.

Before the expiration of his two-year employment

contract,

Mr.

Thompson alleges that Houma Terrebonne Housing Authority Board of
Commissioners

fired him on February 8,

2018;

three white board

members voted to fire him: Chairman Barry Bonvillian, Gene Burke,
and Larry Vauclin.
Equal

Employment

In a Charge of Discrimination filed with the
Opportunity Commission

on

July

13,

2018,

Mr.

Thompson checked boxes indicating that he had been subject to race
discrimination and retaliation; he also wrote:
I.

I began my employment with the above Respondent on
April 6,
2017 most recently as an Executive
Director. On February 8, 2018 I was discharged
after a special meeting was called by Chairman
Barry Bonvillian, Gene Burks and Larry Vauclin.
The company employs over 200 persons.
II.
On January 25, 2018, a special meeting was held to
terminate my employment. I was hospitalized from
January 20, 2018 until January 25, 2018.
I had no
previous write-ups or complaints against me.
I
believe Mr. Bonvillian retaliated against me for
refusing to commit illegal acts involving contracts
and parish property.
Mr. Bonvillian would ask me
to give contracts to his friends without it going
up for public bid. I refused to do so.
Mr.
Bonvillian also requested that I sell scatter sites
to his friends but again I refused.
On another
occasion, Mr. Bonvillian wanted me to go to lunch
with a contractor.
I refused once again. On
February
8,
2018 Mr.
Bonvillian breached my
contract after he terminated my employment.
III. I believe I have been discriminated against based
on my race
(Black)
and retaliated against in
violation of Title VII of the Civil Rights Act of
1964 as amended.
2

Case 2:18-cv-09394-MLCF-JCW Document 37 Filed 09/09/19 Page 3 of 8

On July 30,

2018,

the EEOC issued a

right

to

sue

letter.

On

October 9, 2018, proceeding pro se, Mr. Thompson filed this lawsuit
and was granted permission to proceed in forma pauperis.

i

The

defendants moved to dismiss Mr. Thompson's complaint for failure
to state a claim.

On February 6,

2019,

motion to dismiss without prejudice,

the Court granted the

affording Mr.

Thompson an

opportunity to amend his complaint.
After being granted two extensions,
amended complaint.

the plaintiff filed an

In his amended complaint, Mr. Thompson restated

the original complaint verbatim, included a list of witnesses that
the plaintiff wished to call in support of his claims, stated that
Bonvillian mistreated him along with other members of the "black
community," and,

finally,

stated that he was wrongfully fired

because of his race and because he refused to break the law.
defendants moved to dismiss the amended complaint.

The

On June 19,

1 In his complaint and amended complaint, Mr. Thompson states that,
months after his employment was terminated, in June 2018, he
reported to the Houma Police Department that Barry Bonvillian
stalked him, called Mr. Thompson a "boy," and asked Mr. Thompson
to call him (Mr. Bonvillian) "uncle." Mr. Thompson alleges that
the media has investigated Mr. Bonvillian for his racist behavior
towards members of the black community. Mr. Thompson alleges that
he believes Bonvillian and other commissioners were upset and fired
him because he refused to participate in deals that violated
federal or state regulations. Mr. Thompson alludes to lodging a
whistleblower complaint with HUD in late June 2018.
3

Case 2:18-cv-09394-MLCF-JCW Document 37 Filed 09/09/19 Page 4 of 8

2019, the Court granted the defendants' motion to dismiss and two
days later issued its judgment in favor of the defendants and
against the plaintiff, dismissing his claims with prejudice.

The

plaintiff now moves to reconsider the order and judgment dismissing
his lawsuit.
I.
A.

The

Federal

Rules

of

Civil

Procedure

recognize motions for reconsideration.
must

consider

motions

for

do

not

expressly

Nevertheless,

the Court

reconsideration

challenging

an

interlocutory order under Rule 54 (b) and -- depending on the timing
of the motion

the Court must consider motions challenging a

judgment as either a motion "to alter or amend" under Rule 59(e)
or a motion for "relief from judgment" under Rule 60(b).

A motion

seeking reconsideration or revision of a district court ruling is
analyzed under Rule 59(e), if it seeks to alter or amend a final
judgment, or Rule 54 (b), if it seeks to revise an interlocutory
order.

See, e.g., Cabral v. Brennan, 853 F.3d 763, 766 (5th Cir.

2017)(determining that the district court's erroneous application
of the "more exacting" Rule 59(e)
partial

summary

judgment

was

standard to a motion granting

harmless

error

given

appellant was not harmed by the procedural error).

4

that

the

Case 2:18-cv-09394-MLCF-JCW Document 37 Filed 09/09/19 Page 5 of 8

"A motion to alter or amend a judgment must be filed no later

than 28 days after the entry of judgment."
Rule 59(e)

"serve[s]

Fed. R. Civ. P. 59(e).

the narrow purpose of allowing a party to

correct manifest errors of law or fact to present newly discovered
evidence," and it is "an extraordinary remedy that should be used
sparingly."

Austin v. Kroger Texas, L.P., 864 F.3d 326, 336 (5th

Cir. 2017)(quoting Templet v. HydroChem Inc.,

367 F.3d 473,

479

(5th Cir. 2004)) .
Rule 59(e) allows a court to alter or amend a judgment if the
movant establishes
discovered evidence.

a manifest error of law or presents newly
Fed. R. Civ. P. 59(e).

"A Rule 59(e) motion

'calls into question the correctness of a judgment.

/ n

Templet v.

Hydrochem, Inc., 367 F.3d 473, 478 (5th Cir. 2004) (quoting In re
Transtexas Gas Corp., 303 F.3d 571, 581 (5th Cir. 2002)) .

Because

of the interest in finality, Rule 59(e) motions may only be granted
if the moving party shows there was a mistake of law or fact or
presents

newly

discovered

evidence

discovered previously. Id. at 478-79.

that

could

not

have

been

Rule 59 motions should not

be used to relitigate old matters, raise new arguments, or submit
evidence that could have been presented earlier in the proceedings.
See id. at 479; Rosenblatt v. United Way of Greater Houston, 607
F.3d 413,

419

(5th Cir.

2010) ("a motion to alter or amend the

judgment under Rule 59(e) 'must clearly establish either a manifest
5

Case 2:18-cv-09394-MLCF-JCW Document 37 Filed 09/09/19 Page 6 of 8

error of law or fact or must present newly discovered evidence'
and 'cannot be used to raise arguments which could,

and should,

have been made before the judgment issued r n ) (citing Rosenzweig v.
Azurix Corp., 332 F.3d 854, 864 (5th Cir. 2003)(quoting Simon v.
United States,

891 F.2d 1154, 1159

(5th Cir. 1990)).

must balance two important judicial

imperatives

The Court

in deciding a

motion for reconsideration: "(1) the need to bring the litigation
to an end; and (2) the need to render just decisions on the basis
of all the facts . "

Templet, 367 F.3d at 479.
B.

Th Court assumes familiarity with the Order and Reasons issued
on June 19, 2019 in which the Court granted the defendants' second
motion to dismiss after providing the plaintiff with ample time
and opportunity to amend his pleading deficiencies; the Court found
that the plaintiff failed to plead sufficient facts to make a
plausible.claim that he was fired because of his race, or that the
defendants

retaliated because

discriminatory

practices.

issued on June 21, 2019.
plaintiffs'

motion

under

59.

Rule

for
Twice

he

complained

Judgment

in

the

about

or

opposed

defendants'

favor

Filed within 28 days of judgment, the
reconsideration
this

Court

is

has

properly
determined

considered
that

the

plaintiff's allegations were devoid of factual content and thereby
fell short of Rule 8's requirements.
6

Likewise,

the plaintiff's

Case 2:18-cv-09394-MLCF-JCW Document 37 Filed 09/09/19 Page 7 of 8

arguments

in

support of his Rule

59 motion are conclusory and

merely demonstrate dissatisfaction with the outcome of his case.
He therefore fails to persuade the Court that he is entitled to
relief.
The plaintiff urges the Court to allow him his "day in court."
He suggests that he has suffered injuries and that dismissal of
his

lawsuit

was

unjust,

and

he

advances

the

same

conclusory

arguments advanced in opposition to both of the defendants' motions
to dismiss.

The Court has already decided these issues and the

plaintiff has had ample time to correct his pleading deficiencies.
To persuade the Court that reconsideration is warranted, Thompson
as the moving party must identify some error of fact or law,
some

newly

Court's

discovered

conclusion.

He

evidence,
has

which

failed

to

would
do

have

so.

altered

The

motion

or
the
to

reconsider fails to identify any error for this Court to reconsider
and therefore fails as a matter of law.
C.
The Court notes that the plaintiff did not file a separate
request for oral argument, but he indicates in his motion that he
wants the Court to hear argument and he notes in his notice of
submission that "oral argument is hereby set for submission... on
September 11, 2019 at 10:00 a.m."

Insofar as this may be construed

as a request

the request

for oral argument,
7

is

DENIED for his

Case 2:18-cv-09394-MLCF-JCW Document 37 Filed 09/09/19 Page 8 of 8

failure to demonstrate that: the case is of widespread community

interest;

or that the issues raised by his motion involve any

constitutional issues, any novel or complex issues of law that are
unsettled,

or the issue raised requires an evidentiary hearing.

The plaintiff suggests in conclusory fashion that a few of these
His request for

factors are present here. The Court disagrees.

oral argument (like his request for reconsideration and like his
complaint
conclusory
necessary
reconsider.

and amended complaint)
pleas
for

fail

the
There

to

Court
is

is

devoid of

substance;

demonstrate

that

to

his

opposed

left

for

resolve

simply nothing

oral

his

argument

is

motion

to

Court

to

this

resolve.
Accordingly, for the foregoing reasons,

IT IS ORDERED: that

the plaintiff's motion to reconsider and his request for oral
argument on his motion are hereby DENIED.

New Orleans, Louisiana, September 9, 2019

lA
MARTIN I . C. ^ELDMAN
UNITED STAT: S DISTRICT JUDGE

8

